APPENDIX

1

TABLE OF CONTENTS
Page
APPENDIX
Decision of the 9th circuit Decision was late for
reconsideration when a 60(b) motion is good
for one year and 28 U.S.C. Section 1738 fed­
eral judge must follow. This disable person
was unable to meet the twenty day dead line.
The Ninth Appeals court ruled against a Con­
stitutional law that was pass by Congress
See, 28 U.S.C. Section 1738 and Ninth Ap­
peals Court opinion AGAINST Claim Split­
ting No. 14-17498..............................................
Washington State Supreme Court; ORDER.......

la
3a
7a

Report of Chase attorney that claims WAMU
Bank sold all their mortgages before Chase
bought WAMU Bank.........................................

8a

SWORN OATH VERICATION OF BARTONS’
AUDIT................................................................

12a

Federal District Court ORDER September........

Paladin Associates Summary and Conclusion “if
the Note a Deed of Trust are held by different
entities, the loan would considered bifurcated ....14a
Paladin Associates Summary and Conclusion
that Chase Bank does not own WAMU Banks
Mortgages or loans............................................

17a

September 29,2010 dated QUIT CLAIM DEED,
San Diego County Recorder’s Office................

17a

11

TABLE OF CONTENTS - Continued
Page
Fraudulent Activity Related to this Property....

19a

Deed of Trust recorded by WAMU FA in King
County recorder’s Office....................................

23a

WAMU CLOSING BOOKET PAGE 102 were it
shows CHASE FAILED TO FILE A CLAIM....... 25a
Copy of the original note that shows WAMU sold
their mortgage...................................................

27a

CHASE AUTHERTRATLAN REVOKED dated
September 30, 2011...........................................

28a

UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT PUBLISHED
OPINIO Rule against Claim Splitting No. 1417498 ..................................................................

29a

la
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JEAN MARIE BARTON;
No. 18-35798
BYRON LEE BARTON,
D.C. No. 2:17-cvindividually and on behalf of 01100-RAJ
all others similarly situated,
MEMORANDUM*
Plaintiffs-Appellants,
(Filed Sep. 17, 2020)
v.
QUALITY LOAN SERVICE
CORP OF WASHINGTON;
TRIANGLE PROPERTY
OF WASHINGTON,
Defendants-Appellees.
Appeal from the United States District Court
for the Western District of Washington
Richard A. Jones, District Judge, Presiding
Submitted September 8, 2020**
Before: TASHIMA, SILVERMAN, and OWENS, Circuit
Judges.
Jean Marie Barton and Byron Lee Barton appeal
pro se from the district court’s judgment dismissing

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

2a
their action alleging federal and state law claims aris­
ing out of foreclosure proceedings. We have jurisdic­
tion under 28 U.S.C. § 1291. We review de novo.
Stewart v. U.S. Bancorp, 297 F.3d 953, 956 (9th Cir.
2002) (dismissal based on claim preclusion); Omar v.
Sea-Land Serv., Inc., 813 F.2d 986, 991 (9th Cir. 1987)
(sua sponte dismissal under Fed. R. Civ. R 12(b)(6)).
We affirm.
The district court properly dismissed the Bartons’
action on the basis of res judicata because the Bartons’
claims were raised or could have been raised in previ­
ous actions between the parties that resulted in final
adjudications on the merits. See San Diego Police Of­
ficers’Ass’n v. San Diego City Emps.’Ret. Sys., 568 F.3d
725, 734 (9th Cir. 2009) (federal court must follow
state’s preclusion rules to determine effect of a state
court judgment); Ofuasia v. Smurr, 392 P.3d 1148,1154
(2017) (elements of res judicata under Washington
law).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief, or ar­
guments and allegations raised for the first time on ap­
peal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th
Cir. 2009).
AFFIRMED.

3a
THE HONORABLE RICHARD A. JONES
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
JEAN MARIE BARTON,
BYRON LEE BARTON,
INDIVIDUALLY AND ON
BEHALF OF ALL OTHERS
SIMILARLY SITUATED,
Plaintiffs,

)
)
)
)
)

No. 2:17-cv-01100
RAJ
ORDER
(Filed Sep. 6, 2018)

)
)
)

v.
JPMORGAN CHASE BANK, )
’ )
N.A., QUALITY LOAN
)
SERVICE CORP. OF
)
WASHINGTON AND
)
TRIANGLE PROPERTY
)
OF WASHINGTON,
Defendants.

)

On May 11, 2018, this Court granted Defendant
JPMorgan Chase, Bank, N.A.’s (“Chase”) Motion to
Dismiss, finding that Plaintiffs’ claims were barred by
res judicata. Dkt. # 26. On July 12, 2018, Chase filed a
Motion for Entry of Separate Judgment under Fed. R.
Civ. P. 54 and 58. Dkt. # 27.
On August 14, 2018, this Court granted Chase’s
Motion and entered final judgment against Plaintiffs
and for Chase. Dkt. # 33. This Court also instructed
Plaintiffs to show cause within two weeks of the date
of the Order why this matter should not be dismissed

4a
as to the other defendants, Quality Loan Service Corp.
of Washington (“Quality”) and Triangle Property of
Washington (“Triangle”), for the same res judicata rea­
sons outlined in this Court’s Order on May 11, 2018
(Dkt. # 26). Id. The Court explicitly warned Plaintiff
that if they failed to make such a showing as to Quality
and Triangle, the Court would “dismiss Plaintiffs’
claims and enter judgment against Plaintiffs as to all
Defendants.” Id. at 3.
Over three weeks have passed, and Plaintiffs have
made three filings; an “Answer to Chase Claims” (Dkt.
# 35), an “Amended Answer to Chase Claims and
Judge’s Proposed Order re Answer to Chase Claims”
(Dkt. # 36), and an untimely “2nd Amended Answer”
(Dkt. # 37). The two timely filings are nearly identical.
Both filings essentially reargue Plaintiffs’ case against
Chase (who has already been dismissed), mad do not
purport to address this Court’s August 14, 2018 Order
or res judicata in any form. Dkt. ## 35,36. These filings
also do not address the claims against Quality or Tri­
angle. The only reference to Quality is in an e-mail at­
tached as an exhibit, where Quality is apparently
named in the title of a 2014 article. Dkt. # 35 at 15;
Dkt. # 36 at 18. The only reference to Triangle is an
unsupported allegation that Triangle towed and sold
the Bartons’ truck and motor cycle. Dkt. # 35 at 5-6;
Dkt. # 36 at 8-9. Neither filing addresses the fact that
both Quality and Triangle were previously defendants
in one or more of the Bartons’ previously-dismissed
lawsuits on these claims. See, e.g., Barton v. JPMorgan
Chase Bank, AA, No. CI3-0808RSL, (W.D. Wash. 2013)

5a
(Quality and Chase included as defendants); Barton v.
JPMorgan Chase Bank, N.A., No. C12-1772JCC (W.D.
Wash. 2012) (same); Barton v. JP Morgan Chase Bank,
N.A., 196 Wash. App. 1007 (2016) (unpublished) (Chase
and Triangle included as defendants). Neither filing
addresses the fact that Plaintiff s claims were, or could
have been, brought against Quality and Triangle in
previous lawsuits. Dkt. # 26. Neither filing presents
any reason why this case should continue against
Quality or Triangle. The third filing, the “2nd Amended
Answer,” in untimely per the Court’s Order to Show
Cause, and although it vaguely alleges that Triangle
has with issues clouded titles, it fails to address why
Plaintiffs claims as to Triangle should not be dismissed
due to res judicata. Dkt. # 37.
The Court thus concludes that Plaintiff has failed
to show cause why this case should not be dismissed
as to Quality and Triangle based on the res judicata
grounds identified in its May 11, 2018 Order (Dkt.
# 26). Where “the plaintiffs cannot possibly win relief.”
the trial court may sua sponte dismiss claims for fail­
ure to state a claim. Sparling v. Hoffman Const. Co.,
864 F.2d 635, 638 (9th Cir. 1988); Edwards v. Caliber
Home Loans, No. C16-1466-JCC, 2017 WL 2713689, at
*3 (W.D. Wash. June 7, 2017), aff’d sub nom. Edwards
v. Caliber Horne Loans, Inc., 708 Fed. Appx. 438 (9th
\.
Cir. 2018) (dismissing claims against the defendant
trustee in a wrongful foreclosure action despite defen­
dant trustee’s failure to join in the other defendants’
motion to dismiss). Based on the record and Plaintiff’s
failure to show cause, the Court concludes that

6a
Plaintiffs claims against all Defendants are barred for
the reasons outlined in its May 11, 2018 Order. Dkt.
#26.
Accordingly, Plaintiffs’ claims as to Defendants
Quality and Triangle are DISMISSED WITH PREJ­
UDICE. The Clerk of Court shall enter final judgment
against Plaintiff’s and for Defendants Quality and Tri­
angle.
DATED this 6th day of September, 2018
/s/ Richard A. Jones
The Honorable Richard A. Jones
United States District Judge

7a
THE SUPREME COURT OF WASHINGTON
BYRON BARTON, et ano.,

No. 93777-0
ORDER

Petitioners,
v.
JP MORGAN CHASE BANK,
et al.,

Court of Appeals
No. 73336-2-1

Respondents.
Department II of the Court, composed of Chief
Justice Fairhurst and Justices Madsen, Stephens,
Gonzalez and Yu, considered at its February 7, 2017,
Motion Calendar whether review should be granted
pursuant to RAP 13.4(b) and unanimously agreed that
the following order be entered.
IT IS ORDERED:
That the Petition for Review is denied. Petitioner’s
motion to file a supplement to the Petition for Review
and “Supplemental Motion 9.5 Objection” are also de­
nied. Respondent JP Morgan Chase Bank’s request for
attorney fees is denied.
DATED at Olympia, Washington, this 8th day of
February, 2017.
For the Court
/s/ Fairhurst, C.J.
CHIEF JUSTICE

8a
SULLIVAN & CROMWELL LLP
telephone: 1-310-712-6600
facsimile: 1-310-712-8800
www.sull.crom.coin
1888 Century Park East
Los Angeles, California 90067-1725
[Illegible]
September 12. 2014
Via FedEx
Federal Deposit Insurance Corporation,
Receiver of Washington Mutual Bank,
Henderson, Nevada
1601 Bryan Street, Suite 1701,
Dallas Texas 75201.
Attention: Reginal Counsel
(Litigation Branch) &
Deputy Director (DRR Filed Operations Branch)
Re: Indemnification Obligations
Dear Sirs.
We refer to the Purchase and Assumption Agree­
ment Whole Bank, dated as of September 25,2008 (the
“Agreement”) by and among the Federal Deposit Insur­
ance Corporation in its corporate capacity (“FDIC Cor­
porate”) and as receiver (“FDIC Receiver” and,
together with FDIC Corporate, “FDIC”) and JPMorgan
Chase Bank, N.A. (together with its subsidiaries and
affiliates, “JPMC”) relating to the resolution of Wash­
ington Mutual Bank Henderson, Nevada (“WMB”).
This letter supplements our prior indemnification

9a
notices and provides you with written notice of addi­
tional matters for which JPMC is entitled to indemni­
fication under Section 12.1 of the Agreement.
The additional matters giving rise to JPMC’s in­
demnity rights relate to costs incurred in connection
with mortgages held by WMB prior to September 25,
2008. Theses costs have resulted from aspect of—and
circumstances related to—WMB mortgages that were
no reflected on the books and records of WMB as of
September 25, 2008, and include:
(a) Costs incurred by JPMC associated with indi­
vidual assignments of WMB mortgages.
Where JPMC has initiated foreclosures on
properties associated with mortgages that
were held by WMB prior to its Receivership,
JPMC has performed individual assignments
of the associated mortgages/deed of trust and
allonges to comply with a recent appellatelevel court decision in Michigan so as avoid
potential additional expense and/or liability.
In so doing, JPMC has incurred additional re­
cording and legal fees. Limited Power of Attor­
ney costs, as well as quantifiable costs
associated with increased staffing to address
these issues.
(b) Costs incurred by JPMC associated with pre­
paring and submitting, and/or updating infor­
mation on, lien release documents related to
WMB-serviced loans that were paid in full
prior to September 25, 2008.
(c) Costs incurred by JPMC to expunge records
associated with WMB mortgages as a result of

10a
errors in mortgage documentation occurring
prior to September 25,2008, including errone­
ously recorded satisfactions of mortgages and
associated legal fees and disbursements.
(d) Cost incurred by JPMC to correct various de­
fects in the chains of title for WMB mortgages
occurring prior to September 25 2008, includ­
ing recording and legal services fees.
At the time of WMB’S closure, the above liabilities
were not reflected on its books and records. (If you dis­
agree, please identify where on WMB’s books and rec­
ords such a liability was reflected.) As you know, the
liabilities assured by JPMC were limited to those on
WMB’s “Books and Records,” with a “Book of Value,”
when WMB was closed. JPMC did not assume any
WMB liabilities that did not have a book value on
WMB’s books and records at the time WMB was placed
into receivership, nor did it assume, for those liabilities
on WMB’s books and records, liability for any amounts
in excess of such book value. Thus, any liability for con­
duct that precedes WMB’s close remains with FDIC.
JPMC is advising you that the liability it may in­
cur in connection with these matters, including the
costs and expenses it incurs in defending against any
action that may arise in relation to these matters, as
well as the amount of any settlement or adverse judg­
ment, are subject to indemnification by the FDIC pur­
suant to Section 12.1 of the Agreement.
As you are aware from previous correspondence
notifying you of the FDIC’s indemnification obligations

11a
in other matters, the matters identified in this letter
are not intended to be exhaustive or to constitute a set­
tlement that no other facts have or may come to our
attention that could result in claims for which indem­
nification is
*

*

*

12a
Jean Barton
6548 41st SW
Seattle, Washington 98136
Date 05/02/2014
SWORN OTAH AND VERICATION
OF BARTON’S AUDIT
I, Jean Marie Barton, Oath, with unlimited liability,
proceeding in good faith being of sound mind states
that the facts contained herein are true, complete cor­
rect, and not misleading to the best of private my
firsthand knowledge and belief under penalty of per­
jury.
(1) The nine page audit of Barton’s Washington
Mutual loan is a summary of 482 page audit
for the court to review,
(2) The Washington Mutual loan proves Chase
Bank has no standing to foreclose on Wash­
ington Mutual loans.
(3) The banker that perform
(4) The Washington Mutual loan audit has
twenty five years year of banking services and
knows banking procedure.
SUBSCRIBED AND SWORN /s/ Jean Marie Barton
Jean Marie Barton
IN WITNESS WHEREOF, I, a notary Public of the
State of Washington. Duly commissioned and sworn.
Have hereunto set my hand and affixed my official seal
in King County at Seattle on this date of May 02,2014.

13a
/s/ Barry L. Chastain
Notary Barry L. Chastain

Seal

BARRY L. CHASTAIN
NOTARY PUBLIC
STATE OF WASHINGTON
COMMISSION EXPIRES

JULY 9, 2015
My commission expires 7/9/2015

14a
[LOGO]
Paladin Associates
SUMMARY AND CONCLUSION
In preparation for this narrative summary, the auditor
has thoroughly reviewed each document submitted for
review. Above is the verified timeline that applies to
this Loan. In addition, information from other sources
has been researched and included as deemed appropri­
ate. Although not expressly stated in the Client Intake
Sheet, it is assumed that the purpose of the Borrowers
engagement of this review is to determine whether the
foreclosing party has legal standing to sell the prop­
erty; and if not, whether information ascertained in
conjunction with this audit might assist in either 1)
further delay and/or 2) prevent outright the foreclo­
sure of the property.
It should be noted that the primary document for re­
view in an audit is the Promissory Note. We have been
provided with a copy of the Note, which contains the
borrower’s signature, however it is stamped as a true
and correct copy by the closing attorney, indicating
that the copy was made in 2007 at the time of signing.
We do not see that the original Note has been provided
to the borrower for inspection, as allowed for under the
Uniform Commercial Code. We do not see any asser­
tion by the lender that it has lost the original note (a
Lost Note Affidavit).
We have not been provided with an Assignment of
Deed of Trust, transferring beneficial interest of the
Deed to any other entity. We do not see that this loan

15a
has been securitized in a Mortgage-Backed transac­
tion.
We have not been provided with a Substitution of Trus­
tee appointing Quality Loan Service Corp. of Washing­
ton to act as a foreclosure trustee on behalf of the Deed
of Trust.
We have recently reviewed the sworn testimony of
Lawrence Nardi, an officer of PJMorgan Chase Bank,
N.A. and the operations Unit Manager that handles
contested and litigated matters with inside and out­
side counsel. The deposition was taken on May 9, 2012
in the matter of JPMorgan Chase Bank, N.A. vs
Sherone Waisome, et al In The Circuit Court of the
Fifth Judicial Circuit, in and for Lake County, Florida.
The deposition has been included as an exhibit, and it
appears that a schedule (list) of the loans that JP Mor­
gan Chase Bank, N.A. acquired from Washington Mu­
tual does not exist. Loans may have be sold or paid off
under Washington Mutual, but apparently JPMorgan
Chase is trying to do “the best they can with what they
have” from WAMU.
We do not see that JPMorgan has shown standing to
foreclose in this matter. We do not see that JPMorgan
Chase has been able to produce the original note. We
do not see that JPMorgan Chase has presented proof
that this is a loan that is purchased in the acquisition
of WAMU assets.
If it is determined that the Note and Deed of Trust are
held by different entities, the loan would be considered

16a
bifurcated*, and the security instrument would no
longer have the validity to foreclose on the property.
*Bifurcated
In Carpenter v. Longan 16 Walls 271, 88 U.S. 271, 21
Led. 315 (1872), the United States Supreme Court
stated, “The note and mortgage are inseparable; the
former as essential, the latter as an incident. An as­
signment of the note carries the mortgage with it,
while assignment of the latter above is a [illegible].”
The obligation can exist with or without security but a
security interest cannot without the underlying exist­
ing] obligation{dots]so if all you get is the mortgage
and not the note, that’s pretty much worthless, or you
have a Note without collateral.
September 19, 2011 dated REVOCATION OF
POWER OF ATTORNEY was executed by Jean Marie
Barton, revoking the power of attorney clause in the
Deed of Trust (security instrument) recorded in the
King County of Records # 20070814001629 and #
2007081 4001629, empowering First American, a Cali­
fornia corporation to act as “Trustee”, and Washington
Mutual bank, ITS SUCESSOR OR ASSIGNS to act in
my behalf as my true and lawful attorney. The docu­
ment was recorded on 9/19/2011 as document #
20110919001034, King County, WA.
September 19, 2011 dated NOTICE OF INTENT TO
PRESERVE AN INTEREST, executed by Jean Marie
Barton. The document states it is intended to preserve
a security interest in real property from extinguish­
ment pursuant to section 880.320 et seq of the Civil

17a
Code of the State of California. The Notice states that
Chase was requested to answer a Proof of Claim, and
failed to comply within 30 days. The document was rec­
orded on 9/19/2011 as Document No. 20110919001035,
King County. WA.
December 29 2011 dated AFFIDAVIT & PUBLIC
NOTICE REFERENCE FRAUDULENT ACTIVITY
TO THIS PROPERTY, executed by Jean Marie Barton.
June 30, 2010 dated NOTICE OF ‘TRUSTEES SALE
executed by Deborah Bristle, Vice President of Califor­
nia Reconveyance Company, as Trustee Setting an auc­
tion sale (Trustees Sale) for July 27,2010 at 10:00 AM.,
at the South entrance to the County Courthouse, 220
West Broadway, San Diego, CA. The Document was
Recorded July 02. 2010 as Document No.20100335053, Official Records, San Diego County Re­
corder’s Office,
September 29,2010 dated QUIT CLAIM DEED, exe­
cuted by Sean Park and Michelle Park, as Trustees of
the Sean and Michelle Park Family Trust dated July 2,
2003, granting all interest in the above reference prop­
erty to Sean M. Park. The document recorded on Sep­
tember 29, 2010 as document number 2010-0520448,
Official Records, San Diego County Recorder.
June 08, 2011 dated NOTICE OF TRUSTEE’S SALE
executed by Casey Kealoha, Assistant Secretary of Cal­
ifornia Reconveyance Company, as Trustee Setting an
auction sale (Trustee’s Sale) for July 01, 2011 at 10:00
AM, at the South entrance to the County Courthouse,
220 West Broadway, San Diego, CA. The Document was

18a
Recorded June 10, 2011 as Document No.20110295893, Official Records, San Diego Coney Recorder’s
Office.
April 27, 2012 dated NOTICE OF TRUSTEES SALE
executed by Maria Mayorga, Assistant Secretary of
California Reconveyance Company, as Trustee Setting
an auction sale (Trustee’s Sale) for May 18, 2012 at
10:30 AM, at the entrance to the East County Regional
Center by statue, 250 E. Main Street, Cajon, CA 92020.
The Document was Recorded April 27, 2012 as Docu­
ment No. 2012-0246261. Official Records, San Diego
County Recorder’s Office.
May 7,2013, dated NOTICE OF DISCONTINUANCE
OF TRUSTEE’S SALE was executed by Paul Hitchings, Assistant Secretary of Quality Loan Service Cor­
poration of Washington, discontinuing the Trustee’s
Sale set by the Notice of Trustees Sate recorded on
4/5/2013, under Auditors number 0130405001344. The
document was recorded electronically as 2013050
9001797 on 5/09/2013. King County Washington.

19a
Prepared by:
Jean Marie Barton
After recording
return to:
Jean Marie Barton
6548 41st Ave SW
Seattle, WA 98136
206 935 9384

)
)
)
)

20111229001774
cash/barton n 78.99
page 001 of 615
12/28/2011 12:23

) KING COUNTY, WA
)
ORIGINAL
)

) —Above This Line Reserved
)
For Official Use Only—

Affidavit & Public Notice Reference
Fraudulent Activity Related To This Property
I, Jean Marie Barton, of 6548 41st Ave SW, city of Se­
attle, county of King, state of Washington, the under­
sign Affidavit having been duly sworn, depose and
states truthfully, for the record regarding the below
property, the following information.
The legal description of this property to the best of my
knowledge based on public records is:
Abbreviated Legal; Lt 3-4 BLK.3 GATEWOOD-GARDENS V.25 P. 15
Tax Parcel Number. 271910010
Also known as 6548 41st Ave SW Seattle, WA 98136
Regarding the following recording information on King
County Public Records
Mortgage Allegedly Signed:
On August 06, 2007 and record on August 14, 2007
DEED OF TRUST loan # 3014060077-068 (security In­
strument) recorded in the King County of Records

20a
# 20070814001628 and loan # 0772783908 recorded in
the King County 2007081001629 between BYRON L.
BARTON AND JEAN BARTON, HUSBAND AND
WIFE dated August 06,2007 given to, and empowering
First American, a California corporation, located at
1567 Meridian Ave “800 Seattle. WA 98121 to act as
“Trustee” is hereby replace for “default of proof of claim
and fraudulent signatures of Jean M Barton, upon the
recorded Mortgage, Deed of Trust or Security instru­
ment are forgery(s) by unknown Washington Mutual
agent(s), J.R Morgan; Chase Bank the unrecorded
Beneficiary and Successors or assigns allegedly claims
the mortgage has not been fully paid off, satisfied, not
discharged, but instead continues to exist in attempts
to collected on a VOID or NULLY contract even though
Chase knowingly knew that a Breach of Contract and/
or fraudulent signatures are present to the recorded
Mortgage or Deed of Trust in violation of law.
1.

The Forensic Document Examiner Report of
Brain Forrest, is undisputed by WAMU, J.P.
Morgan and Chase Bank. WAMU, J.R Mor­
gan and Chase Bank “Failure Proof of Claim”
is undisputed and have exhausted all admin­
istrative remedy. That the Respondent(s) re­
moved their Trustee of record by written
notice dated September 30, 2011 ref 0290-01
IF 1A 273-000000000000.

2.

‘That, according to the Proof of Claim and Fo­
rensic Document Examiner Report, the Re­
spondents are now in DEFAULT and
WITHOUT RECOURSE and no evidence has
been presented to the contrary. (See Exhibit

21a
C Forensic Document Examiner Report of
Brain Forrest).
3.

If the Bank or the Bank’s continue to attempt
to collected on a NULLY and VOID contract
or attempt to foreclose on this property after
this declaration, then they do so knowing they
have no standing or right of enforcement.
Therefore, doing so will make them guilty of
extortion, theft and fraud. All Federal felonies
punishable with prison time.

4.

Should the Bank’s take any form action of
Public recording such as Affidavit of Correc­
tion, Affidavit of Erroneous Recording, Affida­
vit of Erroneous Release and/or legal action
upon the NULLY and. VIOD contract and/or
proceed with foreclosure action, they do so at
their full commercial liability and shall be
named a co-defendant against them in a
wrongful civil action 3 x damages.

Jean M Barton is knowledgeable makes this affidavit
for the purpose of giving notice to correct the abovedescribed instrument, mortgage and, or Deed of Trust
by Striking the Bank’s mortgage contract 3014060077;
0772783908 in entirely for payment(s) is NULL and
VIOD for Breach of Contract and fraudulent actions of
the Banker’s that impaired the mortgage.
Dated; December 29, 2011.
/s/ Jean Marie Barton________
Principal Jean Marie Barton
State of Washington
County of King

22a
NOTARY
IN WITNESS WHEREOF, I, a notary Public of the
State of Washington duly commissioned and sworn,
have hereunto set my hand and affixed my official seal
in the King County at Seattle on this date of December
u, 2011
/s/ Barry L. Chastain
Barry L. Chastain
BARRY L. CHASTAIN
NOTARY PUBLIC
STATE OF WASHINGTON
COMMISSION EXPIRES

JULY 9,2015
Notary
My commission expires 7/9/2015

23a
Return to:

20070814001628

WASHINGTON MUTUAL BANK PA
2219 ENTERPRISE DR
FLORENCE, SC 29501
DOD OPS M/S FSCE 440

FIRST AMERICAN BA $ 1.00
PAGE 001 OF 821

05/14/2007 12:42
KING COUNTY, WA

Assessor’s Parcel or Account Number 2719100105
Abbreviated Legal Description: n/a
Lt 3-4 Blk 3 Gatewood Gardens V.25 P.15
[Include lot. [illegible] and plat or section, Township
and range] Full legal description located on page 3
Trustee FIRST AMERICAN TITLE CO.
21/261
(Space Above This Line For Recording Data)DEED OF TRUST
DEFINITIONS
Words used in multiple sections of this document are
defined below and other words are defined in Sections
3,11,19,20, and 21. Certain rules regarding the usage
of words used in this document are also provided in
Section 16.
(A) “Security Instrument” means this document, which
is dated AUGUST 05, 2007 together with all Riders to
this document.
(B) “Borrower” is BYRON L. BARTON AND, JEAN
BARTON, HUSBAND AND WIFE
Borrower is the trustor under this Security Instru­
ment.

24a
(C) “Lender” is WASHINGTON MUTUAL BANK, PA
WASHINGTON-Single Family-[Illegible] UNIFORM
INSTRUMENT Form 3863 IRI
-6(WA) (0612
page 1 of 15
Initials BLB
VMP MORTGAGE FORMS - (UCC) [illegible]
JMB

25a
WaMuClosingBook.txt
FDIC as Receiver of
Washington Manual Bank
1601 Bryan Street
Dallas, TX 75201
Attention: George Fritz
Under federal law, with certain limited exceptions, fail­
ure to file such claims by the Bar Date will result in
disallowance by the Receiver, the disallowance will be
final, and further rights or remedies with regard to the
claims will be barred. 12 U.S.C. Section 1821(d)(5)(C),
(d)(6).
TO THE DEPOSITORS OF THE INSTITUTION
The Federal Deposit Insurance Corporation, in its cor­
porate capacity, which insures your deposits (the
“FDIC”), arranged for the transfer of the deposit(s) at
the Failed Institution to another insured depository in­
stitution, JPMORGAN CHASE RANK NATIONAL
ASSOCIATION, Columbus, OH, 43240 (“the New In­
stitution”). This arrangement should minimize the in­
convenience that closing of the Failed Institution
causes you. You may leave your deposits in the New
Institution, but you must take action to claim owner­
ship of your deposits.
Federal law 12 U.S.C. Section 1822(e), requires you to
claim ownership of (“claim”) your deposits at the New
Institution within eighteen (13) months from the Clos­
ing Date. If you do not claim your deposits at the New
Institution by March 25, 2010, the funds in your ac­
counts) will be transferred back to the FDIC, and you

26a
will no longer have access to your deposit(s) at the New
Institution. However, as described in more detail below,
you may still be able to obtain these funds from your
state government or the Receiver.
You may claim your deposits at the New Institution by
taking any of the following actions within 18 months
from the Closing Date. If you have more than one ac­
count, your action in claiming your deposit in one ac­
count will automatically claim your deposit in all of
your accounts.
1. Making a deposit to or withdrawal from your ac­
counts). This includes writing a check on any account,
or having an automated direct deposit credited to or an
automated withdrawal debited from any account;
2. Executing a new signature card on your account(s),
enter into a new deposit agreement with the New In­
stitution, changing the ownership on your account(s),
or renegotiating the terms of your certificate of deposit
account;
3. Providing the New Institution with a completed
change of address form; or RLS7211

:
:

I
i

\

;
i

i

"

29)i>Vjt!}Md t'btl •'Wddf'iu n'abtan •Ul

*LZ

r!®*®3

28a
Chase (OH4-7382)
3415 Viston Drive
Columbus, OH 4321904009

CHASE

ORIGINAL
September 30, 2011
[Illegible]
Jean Barton
6548 41st Ave SW
Seattle, WA 98136-1814
Re: Account Number: *******077
Jean Barton
Dear Jean Barton:
We are writing in response to the inquiry Chase re­
ceived about the Power of Attorney for this account.
We have updated our records to show First American
no longer has power of Attorney for this account. We
appreciate your business. If you have questions, please
call us at the telephone number below.
Sincerely,
Chase
(800) 848-9136
(800) 582-0541 TDD / Text Telephone
www.chase.com

29a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Daewoo Electronics
America Inc., a Florida
corporation,
Plaintiff/Appellant,

No. 14-17498
D.C. No.
3:13-cv-01247-VC
OPINION

v.
Opta Corporation, a
Delaware corporation
registered to do business in
California; T.C.L. Industries
Holdings (H.K.) Limited, a
Hong Kong corporation; TCL
Mulitmedia Technology
Holding Limited, a Cayman
Islands Company; TCL
Corporation, a Shenzhen,
China, corporation,
Defendants-Appellees.

Appeal from the United States District Court
for the Northern District of California
Vince G. Chhabria, District Judge, Presiding
Argued and Submitted December 16, 2016
San Francisco, California
Filed November 27, 2017
*

30a
Before: Jay S. Bybee and N. Randy Smith, Circuit
Judges, and Leslie E. Kobayashi,* District Judge.
Opinion by Judge N.B.. Smith;
Dissent by Judge Bybee
SUMMARY**
Claim Preclusion
The panel reversed the district court’s dismissal
of almost all of Daewoo Electronics America Inc.’s
claims as barred by a prior judgment of the United
States District Court for the District of New Jersey;
and remanded for further proceedings.
Daewoo brought this diversity action to recover
unpaid debt from four entities affiliated with GoVideo
for GoVideo’s purchase of DVD players from Daewoo.
Daewoo previously filed suit in New Jersey federal
court seeking to enforce a guaranty agreement, arid
the court ruled against Daewoo.
The panel held that the summary judgment ruling
of the federal district court in New Jersey on Daewoo’s
prior breach of contract claim (based on the guaranty
agreement) against Opta Corporation and TCL

* The Honorable Leslie E. Kobayashi, United States District
Judge for the District of Hawaii, sitting by designation
This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

31a
Industries Holdings Limited did not preclude Daewoo
from bringing the present alter ego and
*

*

*

